CAPITAL CASE
DOCKET NO. ____________
IN THE SUPREME COURT OF THE UNITED STATES

RAY LAMAR JOHNSTON,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

PROOF OF SERVICE

David D. Hendry
Florida Bar Number 0160016
Law Office of the Capital Collateral Regional
Counsel – Middle Region
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
Phone No. (813) 558-1600 ext. 624
Fax No.
(813) 558-1601
hendry@ccmr.state.fl.us
Attorney of Record for Petitioner

PROOF OF SERVICE
I, David D. Hendry, do swear or declare that on this date, August 20, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Timothy Freeland
Senior Assistant Attorney General
Florida Bar. No. 539181
Office of the Attorney General
3507 East Frontage Road, Suite 200
Tampa, Florida 33607-7013
(813) 287-7910
capapp@myfloridalegal.com
timothy.freelandd@myfloridalegal.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 20, 2020.

/s/David D. Hendry
David D. Hendry
Assistant CCRC-M
Florida Bar No. 0160016
Capital Collateral Regional Counsel – Middle Region
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
(813) 558-1600
hendry@ccmr.state.fl.us

1

